Supreme Court, U.S.
FILED

WAIVER

NOV 0 5 2020
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

Douglas D. Yokois

20-6082
v. David C. Shinn et al.
(Respondent)

(PetitiOner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
11 Please enter my appearance as Counsel of Record for all respondents.

0

There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

0 I am a member of the Bar of the Supreme Court of the United States.
D I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
DV./ signed by Elts Marra
cn.E. nem. o=Anzona Attorney Genoa. Office. otmCriminal Appeals, emaikeka.ybarraQnzag.gov. [A'S
Data: 2020.11.04 10:5525 -oncr

liza Ybarra
Signature E
Date.

November 4, 2020

(Type or print) Name

Eliza Ybarra
0 Mr. 0 Ms. 0 Mrs. D Miss

Firm

Arizona Attorney General's Office

Address

2005 N. Central Ave.

City & State
Phone

Phoenix, Arizona

602.542.8582

Zip
Email

85004

Eliza.Ybarra@azag.gov

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Douglas D. Yokois

RECEIVED
NOV 1 7 2020

17411i°11g5ticr%K.

